Supreme Judicial Court for the Commonwealth of Massachusetts
John Adams Courthouse
One Pemberton Square, Suite 1400, Boston, Massachusetts 02108-1724
Telephone 617-557-1020, Fax 617-557-1145

Hamid Reza Ardaneh
Bridgewater State Hospital (M125950)
20 Administration Road
Bridgewater, MA 02324

RE:

No. SJC-12852
HAMID REZA ARDANEH
vs.
COMMONWEALTH

NOTICE OF DECISION
A decision by the Supreme Judicial Court was issued in the above-captioned case.
Francis V. Kenneally, Clerk
Dated: October 23,2020

COMMONWEALTH OF MASSACHUSETTS
SUPREME JUDICIAL COURT FOR THE COMMONWEALTH
AT BOSTON, October 23,2020

IN THE CASE NO. SJC-12852

HAMID REZA ARDANEH
vs.
COMMONWEALTH

pending in the Supreme Judicial Court for the County of Suffolk, No. SJ-2019-0490.
ORDERED, that the following entry be made in the docket; viz.,
Judgment affirmed.

_, CLERK.

Pi fylSV
}

See opinion on file.

NOTICE: All slip opinions and orders are subject- to formal
revision and are superseded by the advance sheets and bound
volumes of the Official Reports.
If you find a typographical
error or other formal error, please notify the Reporter of
. Decisions, Supreme Judicial .Court, John Adams Courthouse, 1.
Pemberton Square, Suite 2500, Boston, MA, 02108-1750; (617) 5571030; SJCReporter@sjc.state.ma.us
SJC-12852
HAMID REZA ARDANEH

vs.

COMMONWEALTH & others.1

October 23, 2020.

Supreme Judicial Court, Superintendence of inferior courts.

The petitioner, Hamid Reza Ardaneh, appeals from a judgment
of a single justice of this court denying his petition pursuant
to G. L. c. 211, § 3. We affirm.
In August 2016, Ardaneh was indicted on several counts of
rape, in violation of G. L. c. 265, § 22 (b), and one count of
strangulation or suffocation,- in violation of G. L. c. 2 65,
§ 15D (b). In August 2017, while proceedings in the trial court
were ongoing, he was committed for observation to Bridgewater
State Hospital for a determination whether he is competent to
stand trial pursuant to G. L. c. 123, § 15 (a) . He was
subsequently found incompetent to stand trial and was committed
to the hospital pursuant to G. L. c. 123, § 16. He has since
been recommitted, and remains there still,
In November 2019, he
filed his G. L. c. 211, § 3, petition, in which he claimed, very
generally and among other things, that his constitutional rights
have been violated, including his right to effective assistance
of counsel; that he does not suffer from any mental illness and
'has been "falsely" deemed incompetent to stand trial; that he
has exculpatory evidence to prove his innocence; and that the
Commonwealth is protecting the "alleged victim and her family"

1 -Certain individuals associated with Bridgewater State
Hospital; certain individuals associated with the trial court;
and others.

2
because they are-Jewish (and Ardaneh is not) .2"
justice denied.the petition without a hearing.

The single

In his appeal to the full court, Ardaneh continues to raise
a myriad of claims, not all of which are easy to.discern, He
continues to press his ineffective assistance of counsel claim;
he argues his innocence and maintains that he does not suffer
from mental illness; and he makes claims about the "Jewish
mafia" and disparaging and discriminatory statements about Jews.
Although he states that he is seeking injunctive relief, what he
ultimately appears to be seeking is a dismissal of the
indictments against him and release from confinement.3 He does
so, however, without setting forth any sound legal argument.
First, the single justice properly denied relief because
Ardaneh had an adequate alternative remedy. Relief under G. L.
c. 211, § 3, is properly denied where "there are other routes by
which the petitioning party may adequately seek relief." Sabree
v. Commonwealth, 432 Mass. 1003, 1003 (2000). To the extent
that Ardaneh sought dismissal of the indictments, that was a
matter to raise in the trial court in the first instance.4
Similarly, a remedy related to his continuing commitment
pursuant to G. L. c. 123, § 16, lies, in the first instance, in
the trial court.
See id.; G. L. c. 123, § 17.
Second, we note that Ardaneh was not seeking relief in the
county court from any specific rulings of the trial court, but
rather from what he perceived to be general injustices done to
or imposed on him. His claims did not present a situation
warranting extraordinary superintendence relief directly from
this court. The single justice therefore did not err or abuse
his discretion in denying, relief under G. L. c. 211, § 3.
Judgment affirmed.

2 Ardaneh was represented by counsel in the criminal case in
. the trial court. He filed his petition in the county court pro
se.
3 In addition to raising the issue of dismissal of the
indictments in his brief, the petitioner has also separately
filed, in this court, a motion to dismiss the indictments.
4 Indeed, while the petitioner's appeal has been pending in
this court, he filed a motion to dismiss in the trial court,
which was denied.

*

>

3
The case was submitted on briefs.
Hamid Reza Ardaneh, pro se.
Randall E. Ravitz, Assistant Attorney General, for the
respondents.

I

CRIMINAL DOCKET NO. ffrany)

Order of Commitment
Pursuant to
G.L. c. 123, §§ 16(b) or 16(c)

1681CR00418
MENTAL HEALTH DOCKET NO. (Hany)

MASSACHUSETTS TRIAL COURT

1915MH0286 (R)

IN THE MATTER OF

DOB

GENDER

Hamid Ardaneh

06-12-1978

Rl Male |~l Female

PETITIONER

TITLE

FACILITY NAME

Christopher L. Myers, M.D.

Medical Director

Bridgewater State Hospital

SSN

COURT DIVISION

Brockton District Court

In accordance with G.L. c. 123, §§ 16(b) or 16(c), with notice provided to the District Attorney, a
petition has been filed by the Petitioner for the commitment of the Respondent, who has been
previously charged with the following crime(s):
Rape (3cts), Siiffocation/Stragulation (2cts) and A&B on Household Member.
The Respondent was found M incompetent to stand trial or □ not guilty by reason of mental illness or
defect by Middlesex Superior Court
on August 29, 2017
court

date

I find thpt the Respondent is:

EXm&n tally ill as defined by 104 C.M.R 27.05 in accordance with G.L. c.

123, § 2, and
tS^F^Hure to retain the Respondent in a facility would create a likelihood of serious harm, and
0'There is no less restrictive alternative for the Respondent.
I furthepfihd that:
^Failure to retain the Respondent in strict security would create a likelihood of serious harm and
that the Respondent is not a proper subject for commitment to any facility of the Department of
Mental Health.
□ It is further ORDERED that the Respondent be restricted in his/her movement to the buildings
and grounds of the facility.
Therefore, it is ORDERED that the Respondent be committed to fhfi Bridgewater State Hospital
for a period not to exceed □ 6 months (for § 16(b)) ® 1 year (for § 16(c)), or until such time as there
is no longer a likelihood of serious harm by reason of mental illness, or the Respondent becomes
competent to stand trial, whichever period is shorter.
The Court Officer, or other officers duly authorized, are hereby commanded to remove the
Respondent to the facility and deliver said person to the Superintendent or Medical Director and to
make return of this warrant with their doings thereon to the Clerk-Magistrate of this Court as soon as
may be.
TO THE RESPONDENT:
This commitment order prohibits you from being issued a firearm identification card or a license to
carry unless a petition for relief is subsequently granted.
This commitment order expires on:
Signature of Judge

l Q—j 11 I /

4S/SA

RET URNV^

I,____________________________ , hereby certify, that on _________________
delivered the Respondent to the above named facility along with a copy of this order.
Signature

(Rev. 2.28.17)

Title

I

COMMONWEALTH OF MASSACHUSETTS
PLYMOUTH, ss.

DISTRICT COURT OF BROCKTON
No. 19I5-MH-0286 (R)
COURT APPROVED MEDICATION TREATMENT PLAN FOR; Hamid Ardaneh
The approved treatment plan with regard to antipsychotic medications for this patient is the following:
Fluphenazine (Prolixin) up to 40 mg/day p.o. or equivalent i.m. dose, including decanoate
Perphenazine (Trilafon) up to 64 mg/day p.o.
Chlorpromazine (Thorazine) up to 1,000 mg/day p.o. or equivalent i.m. dose
Olanzapine (Zyprexa) up to 30 mg/ day p.o. or equivalent i.m. dose
Lurasidone (Latuda) up to 120 mg/day p.o.
Paliperidone palmitate (Invega Sustenna) up to 234 mg monthly plus loading dose
The above listed medications may be given in combination, as clinically appropriate.
The following non-antipsychotic medication(s) are also requested for treatment of this patient’s mental illness.

i

Lithium (various forms) up to therapeutic blood levels
Valproic acid forms (Depakene or Depakote) up to therapeutic blood levels
Lorazepam (Ativan) up to 16 mg/day p.o. or equivalent i.m. dose
Benztropine (Cogentin) up to 8 mg/day p.o. or equivalent i.m. dose
Diphenhydramine (Benadryl) up to 400 mg/day p.o. or equivalent i.m. dose
Hydroxyzine (Atarax, Vistaril) up to 400 mg/day p.o.
Antidepressant medications up to therapeutic doses
All necessary laboratory studies for evaluation for, and utilization of, the above medications

!

The above listed medipafedgg’-may-lie given in combination, as~clinically appropriate.

j

w-'

Judge:
Date Approved:
Date Expires*:

Xxu/i m

A

!
/V

■

!

"PUH N\t>
Bridgewater Statev{Io^pital
20 Administration Road
Bridgewater, MA 02324
508-279-4543

* Authorization ends upon expiration of underlying commitment order unless otherwise indicated.
i
!

I

COMMONWEALTH OF MASSACHUSETTS
SUPREME JUDICIAL COURT
FOR SUFFOLK COUNTY
No. SJ-2019-490

SUFFOLK, ss.

Exh;bi(23£ 11,26,2019
Ha/ntd Keza fl&Saneh

Middlesex Superior Court
No. 1681CR00418
Brockton District Court
No.l915MH286

22T

HAMID REZAARDANEH
v.
COMMONWEALTH, MIDDLESEX SUPERIOR COURT, GRAND JURY OF
MIDDLESEX, DISTRICT ATTORNEY CEARA MAHONEY, BROCKTON DISTRICT
COURT, SUPERINTENDENT OF BRIDGEWATER STATE HOSPITAL, DOCTOR
SARA LANiADO,HEATHER STROUD, ERIN REGAN, JAMES DEBLOIS,
SUPERINTENDENT OF JAIL BILLERICA, INTERPRETER ALITALEBINEJAD,
INTERPRETER JASMIN PAKIZEGI, SANAZ SIYONIT, JACOB BABAI, DAVID
MERFELD, BONNIE FREEDMA, ABDULLAH ALJOBORI, CAMBRIDGE DISTRICT
COURT, and CAMBRIDGE FAMILY COURT
JUDGMENT
This matter came before the Court, Kafker, J., on a petition pursuant to GL. c. 211, § 3,
asking this court to invoke its extraordinary power to intervene in matters underway in the trial
courts. The petitioner seems to be challenging the commitment to Bridgewater State Hospital, as
well as proceedings in his criminal matter in Middlesex Superior.
Ordinarily, this Court will not exercise its extraordinary power where an adequate
alternative remedy exists. See Votta v. Police Dep't of Billerica, 444 Mass. 1001,1001 (2005)
(exercise of extraordinary superintendence power not "a substitute for the normal appellate
process or merely to provide an additional layer of appellate review after the normal process has
run its course")
Upon consideration, it is ORDERED that the petition be, and the same hereby is, denied
without hearing.
By the Court, (Kafken J.)

Dated •

kiriJ - VI *V^

Assistant. Clerk

